U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                               United States
                Patent and Trademark Office

       USPTO Should Reassess How Examiner
      Goals, Performance Appraisal Plans, and
      The Award System Stimulate and Reward
                        Examiner Production

           Final Inspection Report No. IPE-15722/September 2004




      PUBLIC RELEASE




     Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                               Final Report IPE-15722 

Office of Inspector General                                                                                      September 2004



                                                   TABLE OF CONTENTS 



EXECUTIVE SUMMARY ............................................................................................................. i

BACKGROUND ............................................................................................................................ 1 

OBJECTIVES, SCOPE, AND METHODOLOGY...................................................................... 10 

OBSERVATIONS AND CONCLUSIONS ................................................................................. 11 

I.	 Patent Examiner Goals Have Not Changed Since 1976 to Better Reflect Efficiencies                                   

    in Work Processes and Improved Technology ....................................................................... 11 

    A. Most art units process applications in less time than allotted goals ................................. 11 

    B. Examiner review of patent applications has improved ..................................................... 13 

    C. Application complexity has gradually increased .............................................................. 16 

II. Patent Examiner Performance Appraisal Plans Are Not Linked to Supervisor and                                                          

    PTO Goals............................................................................................................................... 20 

    A. Patent examiners are not rated on achieving PTO’s goals................................................ 20 

    B. Trademark examiners are rated on achieving PTO’s goals .............................................. 22 

III. Patent Examiner Award System Is Not Well Structured ........................................................ 24 

     A. No “gain-sharing” award is offered between 110-120 percent of the production                                                 

        goal to encourage production at that level ........................................................................ 24 

     B. Special achievement award does not require higher performance than the                                                      

        gain-sharing award............................................................................................................ 26 

     C. Criteria for pendency reduction award are not tied to pendency reduction...................... 27 

RECOMMENDATIONS.............................................................................................................. 30

APPENDICES .............................................................................................................................. 31 

     Appendix 1. Examiner and SPE/PTO Production Unit Forecast Model ......................... 31 

     Appendix 2. Quality Review Organizational Chart......................................................... 32 

     Appendix 3. Number of Examiners by Grade Level for Fiscal Years 1998 – 2003........ 33 

     Appendix 4. Patent Corps Performance Appraisal Plans................................................. 34 

     Appendix 5. Workflow Management Criteria ................................................................. 35 

     Appendix 6. Agency Response to Draft Report............................................................... 37 

U.S. Department of Commerce                                              Final Report IPE-15722 

Office of Inspector General                                                      September 2004



                                   EXECUTIVE SUMMARY

The United States Patent and Trademark Office (PTO) was established 200 years ago to promote
technological progress. It encourages worldwide innovation and strengthens the U.S. economy
by administering patent and trademark laws and advising the Secretary of Commerce and the
President on patent, trademark, and copyright protection and trade-related aspects of intellectual
property. Patent and trademark examination is a labor-intensive process: individual examiners
determine the patentability of proposed innovations by comparing applicant claims with prior art
(previous patents, databases, or journals) and existing inventions to determine whether the
proposal is indeed new and warrants a patent. The Office of Inspector General conducted a
review of PTO patent processes to determine the impact of production goals, performance
awards, and appraisal plans on the output of the PTO staff that process patent applications—its
patent examiner corps. We also conducted a limited scope review of the trademark examination
process and the potential to improve its productivity.

As new technologies have emerged and established ones advanced, the number of patent
applications has increased as well, further straining an already overburdened patent processing
system. Patent application filings since 1998 have risen
by 39 percent. In fiscal year 2003, PTO received                    PTO’s patent corps has 8
333,452 new applications, on top of the 362,612                 technology centers that process
applications already backlogged (see figure 2 on page         patents. Together, the centers have
2).                                                            271 art units, each with a staff of
                                                                 examiners that specializes in a
PTO has developed a blueprint for overhauling its                 unique technology, scientific
patent and trademark processes to boost productivity,              method, or classification.
substantially reduce backlogged applications, and help
ensure granted patents are of the highest quality. Its 21st Century Strategic Plan, issued in June
2002 and revised in February 2003, proposes a variety of initiatives—including expanding
automated processing (e-government), sharing search results with foreign patent offices,
improving quality assurance, and outsourcing patent searches.

However, according to a recent Government Accountability Office report, initiatives similar to
those in PTO’s strategic plan could take years to implement. As a result, PTO recognizes that it
must pursue improved productivity through available means and take immediate steps to enhance
and maintain quality in the patent process, while working to implement the other initiatives of
the strategic plan. At the same time, PTO and the OIG both recognize that revisions to
performance plans, production goals, or incentive awards are, as appropriate, subject to
negotiation with PTO’s unions.

Our review focused on areas that offer opportunities for improvement in patent examiner
production in the next few years as well as challenges for enhancing productivity in the
following years. For example, we found that patent examiner production has been stagnant in
fiscal years 2002 and 2003, and the number of examiners receiving performance awards dropped


                                                 i
 U.S. Department of Commerce                                                           Final Report IPE-15722
 Office of Inspector General                                                                   September 2004

 significantly from fiscal year 2002 to 2003. Figure 1 summarizes the problems that we have
 identified with PTO’s current patent examiner goals, appraisal plans, and performance awards.
 These issues highlight why we believe that PTO needs to reevaluate examiner goals, appraisal
 plans, and awards. Our specific findings follow.
Figure 1: Problems with Examiner Goals, Appraisal Plans, and Performance Awards
                                           Examiner Production Goals
 •   Goals have not changed since 1976 to reflect efficiencies in work processes and improved technology (page 11).
 •   Most art units (95 percent) process applications in less time than allotted goals (page 11).
 •   Examiner goals are not adjusted as PTO’s production requirements change (page 20).
 •   Examiner goals are not linked to supervisor and PTO goals (page 20).
                                    Examiner Performance Appraisal Plans
 •   Plans are not linked to supervisor and PTO goals (page 20).
 •   Plans are not adjusted as PTO’s production requirements change (page 20).
 •   Examiners are not rated on achievement of PTO’s goals (page 20).
 •   Examiners receiving outstanding ratings in fiscal years 2001 and 2002 increased from 55% to 61%, while their
     production goal achievement declined (page 20).
                                         Examiner Performance Awards
 • Production award recipients decreased from 72% in 1999 to 61% in 2003 (page 24).
 • Production awards did not improve production because production decreased from 113% and has remained at
   about 110% (page 11).
 • No award is offered to encourage production between 110%-120% of production goal (page 24).
 Source: Office of Inspector General
 Patent Examiner Goals Have Not Changed Since 1976 to Better Reflect Efficiencies in
 Work Processes and Improved Technology. Overall, we found that examiner production goals
 have not been re-evaluated to reflect efficiencies in work processes and improved technology.
 Our review of fiscal year 1999-2003 production statistics reported by seven of PTO’s eight
 patent technology centers revealed that all seven processed applications in less time than
 allotted.1 Most current examiner production goals, which were developed in 1976, may be too
 easily obtainable because approximately 95 percent of the art units processed applications in less
 time than their allotted goals. According to PTO statistics, patent quality is improving and patent
 complexity is only gradually increasing. We were told by examiners that they could do more
 work, but that there is no additional incentive. (See page 11.)

 Patent Examiner Performance Appraisal Plans Are Not Linked to Supervisor and PTO
 Goals. PTO and supervisory patent examiners are provided with specific production goals and
 the annual pendency goals as outlined in the American Inventors Protection Act of 1999.
 However, we found that examiner appraisal plans do not link individual performance to agency
 goals for reducing time to complete “first actions” and overall pendency. As a result, examiners
 explained to us that they can set their personal annual production goals according to the awards
 they want to receive rather than establishing those goals in a fashion that better supports the
 achievement of PTO’s goals.

 1
   PTO does not include Technology Center 2900—patents for design of articles of manufacture—in production
 statistics.

                                                           ii
U.S. Department of Commerce                                             Final Report IPE-15722
Office of Inspector General                                                     September 2004


Conversely, PTO recently aligned its trademark goals with examiner goals by revising the GS-13
and GS-14 trademark attorney performance appraisal plans (see page 22). Hence, we believe
that PTO should consider revising its patent performance appraisal plans to link them to agency
production, first action and overall pendency goals, as well as measures of examiner’s success at
processing applications within specified time periods. (See page 20.)

Patent Examiner Award System Is Not Well Structured. PTO offers examiners three
incentive awards—gain-sharing, special achievement, and the pendency reduction award—which
are tied to examiners’ production or workflow management. We found (1) the gain-sharing
award offers little, if any, incentive to produce more than 110 percent of their assigned
production goal—the minimum production level needed to qualify for a gain-sharing or special
achievement award; (2) the special achievement award requires that examiners only achieve the
same 110 percent average as the gain-sharing award, but over four consecutive quarters, rather
than over the fiscal year; and (3) relatively few examiners have qualified for the pendency
reduction award. Therefore, we recommend that PTO evaluate the current awards system and
criteria, to determine if there is a more effective and efficient way to stimulate higher examiner
production. (See page 24.)

On page 30, we have provided our recommendations to address our findings and conclusions.




PTO concurred with our three recommendations, agreeing to reassess the current patent
examiner goals, performance appraisal plans, and award system, and their effectiveness in
stimulating and rewarding examiner production, as well as their effectiveness in achieving the
objectives of PTO’s 21st Century Strategic Plan.




                                               iii
U.S. Department of Commerce                                            Final Report IPE-15722
Office of Inspector General                                                    September 2004


                                       BACKGROUND

The United States Patent and Trademark Office was
                                                                         Key PTO Statistics
established 200 years ago to promote technological
progress. It encourages worldwide innovation and
strengthens the U.S. economy by (1) administering the
laws relating to patents and trademarks and (2) advising                        2003
the Secretary of Commerce and the President on patent,                             Patents    Trademarks
trademark, and copyright protection and trade-related      Examiners               3,579      239
aspects of intellectual property.                          Applications Filed      333,452    218,596
                                                           Applications Granted    173,072    143,424
                                                           Backlog                 457,254    431,805
PTO’s primary services are to grant patents and register   First Actions           283,111    276,568
trademarks. This report primarily focuses on patent        Final Disposals         284,470    238,759
examiner production. We also reviewed the                  Average Pendency        26.7mos.   19.8 mos.
performance appraisal plans for the trademark
examiners.

Patent processing is handled by the Patent Business Group, which consists of three branches: (1)
the Patent Corps, (2) Patent Examination Policy, and (3) Patent Resources and Planning. The
Patent Corps operates eight technology centers (TC) staffed by directors, supervisory patent
examiners (SPEs), patent examiners, and support personnel. Each center contains art units—or
groups of examiners—that specialize in a unique technology, and are thus responsible for
processing applications that fall within their area of expertise.

   •    TC 1600 – Biotechnology and Organic Chemistry
   •    TC 1700 – Chemical and Materials Engineering
   •    TC 2100 – Computer Architecture, Software, and Information Security
   •    TC 2600 – Communications
   •    TC 2800 – Semiconductors, Electrical and Optical Systems and Components
   •    TC 2900 – Designs for Articles of Manufacture
   •	   TC 3600 – Transportation, Construction, Electronic Commerce, Agriculture, National 

                  Security and License and Review 

   •    TC 3700 – Mechanical Engineering, Manufacturing and Products

Over the years, PTO has adjusted to meet new challenges with the pace of change in the sciences
and technology, including the emergence of new technologies, advances in established ones, and
a rise in the number of patent applications. The latter has been perhaps the greatest challenge.
Patent application filings have risen by 39 percent since 1998. In 2003, PTO received 333,452
new applications, on top of the 362,612 already backlogged (see figure 2), and the average patent
took some 26.7 months to process. PTO has two types of pendency: first action pendency and
overall pendency (see page 3).



                                                1
  U.S. Department of Commerce                                                                                Final Report IPE-15722
  Office of Inspector General                                                                                        September 2004

  Figure 2. PTO’s Actual and Estimated Production


                   PTO’s Actual and Estimated Production for Fiscal Years 1998-2009
      600000
                                                                                                                              4 6 9 ,2 8 3 4 2 1 ,6 5 0
      500000


      400000
               192849 240090                                                                                                  4 4 1 ,9 4 5 4 3 5 ,0 0 6
      300000


      200000

               203227 208313
      100000


           0
                 1998   1999       2000          2001         2002        2003   2004   2005       2006          2007        2008        2009

                               A c tu a l   A p p lic a tio n s F ile d                 E stim a te d   A p p lic a tio n s F ile d
                               A c tu a l   FO AM s                                     E stim a te d   FO AM s
                               A c tu a l   D isp o sa ls                               E stim a te d   D isp o sa ls
                               A c tu a l   B a c k lo g                                E stim a te d   B a c k lo g


Source: PTO Annual Reports and PTO management

  The Patent Examination Process

  Patent examination is a labor-intensive process (see figure 3). However, the tools used by the
  examiners have substantially improved and help make the review process easier. Individual
  examiners determine the patentability of proposed innovations by comparing applicant claims
  with prior art (previous patents, databases, or journals) to determine whether the proposal is
  indeed patentable.

  The office receives most applications in paper form (in fiscal year 2003, 1.3 percent were
  submitted electronically). Upon receipt, each paper application is scanned into an electronic
  record2 and logged into the Patent Application Location and Monitoring (PALM) database.
  PALM organizes the applications into docket reports that are assigned to individual examiners,
  and then examiners process applications in the docket in most cases from the oldest filed to the
  most recent. However, according to examiner performance appraisal plans, they are only
  required to work on new cases that have (a) the oldest effective filing date and (b) the oldest
  actual filing date by the end of every other biweek period. Using PTO and commercial databases
  to search for prior art and existing technology, examiners determine the patentability of the
  proposed invention.



  2
   PTO is implementing an electronic image processing system that should allow examiners to review and process
  applications online.

                                                                            2

U.S. Department of Commerce                                                        Final Report IPE-15722 

Office of Inspector General                                                                September 2004



Figure 3: The Patent Examination Process

      Search                    Examination                 Amendments Review*          Post Examination
      C Take application        C Compare invention to      C Review amendments         C Option 1: If
        from docket report        search results and          submitted by applicant      application is
      C Check for signature       information submitted     C Conduct subsequent          allowed, application
      C Read application to 1     by the applicant      2     search and examination3     is forwarded to
        determine search          (Information                if necessary                publication division.
        field                     Disclosure Statement)     C Prepare subsequent        C Option 2: If the
      C Review patent           C Prepare first office        action—final rejection,     patent is not granted,
        literature and search     action on the merits        or allowance                the applicant can
        commercial and in-        (FAOM) to issue or                                      submit amendments
        house databases for       deny patent                                             until a final rejection
        historical references   C Submit FAOM to
        to invention              supervisor for review
      C Analyze search            or support staff if       *
        results                   examiner has               NOTE: Only if applicant submits an amendment to
                                  signatory authority.                    a non-final rejection


Source: Office of Inspector General

There are two major actions in the tenure of an application being processed: (1) first action on
the merits (FAOM) is the examiner’s initial opinion to allow, restrict, or reject the application;
and (2) final disposal is the examiner’s ultimate decision on the application’s fate. PTO
translates these two actions into cumulative annual measures of individual, technology center,
and agency production, with first action pendency reflecting the average time in months from
date of filing to an examiner’s FAOM and total pendency equaling the average time in months
from date of filing until PTO grants or the applicant abandons the application.3

As figure 4 indicates, patent corps disposals and total first office actions on the merits are rising,
due to the hiring of more examiners, but not nearly enough to offset the growth of backlogged
applications and new filings prior to fiscal year 2003. Specifically, PTO has hired 3,393 new
patent examiners since 1998. After factoring in attrition, the size of the patent examiner corps
has increased by 986—or 38 percent—from 1998 through 2003. During the same period, patent
applications increased by almost 39 percent, patent disposals increased by 40 percent, and first
office actions on the merits by 47 percent.




3
    PTO Fiscal Year 2002 Performance and Accountability Report.

                                                        3
U.S. Department of Commerce                                                        Final Report IPE-15722
Office of Inspector General                                                                September 2004

Figure 4. PTO Production Statistics, Fiscal Years 1998 - 2003
                  PTO Statistics                      1998       1999      2000       2001       2002         2003
    Applications Filed                               240090     261041    293244     326081     333688       333452
        Growth in Applications Filed                             8.7%     12.3%      11.2%       2.3%       -0.007%
    First Office Action on the Merits (FAOM)         192849     226642    237421     241770     275055       283112
        Growth in FAOMs                                         17.5%      4.7%       1.8%      13.7%         2.9%
    Disposals                                        203227     219556    234344     239493     260245       284470
        Growth in Disposals                                      8.0%      6.7%       2.1%       8.6%         9.3%
    Backlog                                          208313     220700    256520     278303     362612       457254
        Growth in Backlog                                        5.9%     16.2%       8.5%      30.3%        26.1%
    First Action Pendency (months)                    12.6       13.8      13.6       14.4       16.7         18.3
    Total Pendency (months)                           23.8       25.0      25.0       24.7       24.0         26.7
    Number of Examiners                               2593       2987      2904       3060       3538         3579
Source: PTO Annual Reports and PTO management

Production Goals

PTO’s patent processing goals are dictated by the American Inventors Protection Act (AIPA) of
1999—which provides specific timeframes—and PTO requirements.

Congressional goals. The American Inventors Protection Act established timeframes within
which PTO should complete each major step of the application review process and ultimately
grant or deny a patent (see figure 5): examiners should (1) issue first actions within 14 months
from an application’s filing date; (2) respond to an applicant’s reply to a rejection or appeal
within 4 months of receiving the applicant’s correspondence; (3) act on an application within 4
months of a decision by the Board of Patent Appeals and Interferences or the federal courts;4 and
(4) issue a patent within 4 months of receiving the applicant’s issue fee. The act’s fifth deadline
is for an overall turnaround time of 36 months from the date of an application’s filing to the date
of the patent’s issuance. If PTO does not meet each of these five deadlines, additional days are
added to the applicant’s 20-year patent term. If the applicant is not diligent in meeting his or her
application responsibilities, the applicant does not receive additional days to the patent term.




4
 The Board of Patent Appeals and Interferences reviews adverse decisions of examiners and determines the priority
and patentability of inventions.

                                                        4

U.S. Department of Commerce                                                       Final Report IPE-15722 

Office of Inspector General                                                               September 2004


Figure 5: American Inventors Protection Act Timeframes

             14                    4                        4                     4                   36
       Issue first office     Respond to     Respond to application      Issue patent within 4   Issue patent
     action on the merits amendment* within within 4 months of Board     months of applicant’s    within 36
     within 14 months of 4 months of receipt  of Patent Appeals or       payment of issue fee     months of
          filing date        by the office   federal court decision                               filing date

            18.3                 PTO requires examiners to process amendments within 2 months         26.7
            PTO                  of receipt per the examiner performance appraisal plan.              PTO
           Actual                                                                                    Actual
    *Note: Amendment refers to an applicant’s reply to a rejection or appeal.
Source: Office of Inspector General and PTO Fiscal Year 2003 Performance and Accountability Report


Agency requirements. PTO’s own goal for total pendency is more aggressive than that of AIPA,
although its goal for first action falls short of the AIPA timeframe. PTO’s recent track record for
meeting both its first action and total pendency goals has been mixed. Its fiscal year 2003 target
for FAOMs was 18.4 months, and for total pendency was 27.7 months.5 Actual average times
for each were 18.3 months and 26.7 months, respectively. However, PTO does not expect to be
able to keep up this track record and expects future performance to be unable to keep pace with
the past and anticipated rise in the number of applications and the growing backlog (see figure 2
on page 2).

Figure 6 compares PTO goals to actual examiner first office action and total pendency for fiscal
year 2002 in each of the seven technology centers that we reviewed. Each technology center has
different processing goals based on the technology in the center. For fiscal year 2002, PTO and
most technology centers met their overall pendency goals but neither the centers nor PTO met
their first action goals.




5
    PTO Fiscal Year 2003 Performance and Accountability Report.

                                                        5
U.S. Department of Commerce                                                   Final Report IPE-15722 

Office of Inspector General                                                           September 2004



Figure 6. PTO’s First Action and Total Pendency Targets and Achievement for Fiscal Year
2002
                            FY 2002 First Action Targets and Actual Performance
                     40

                     20

                        0
                                PTO      TC 1600 TC 1700 TC 2100 TC 2600 TC 2800 TC 3600 TC 3700
   FA Pendency Target           14.7      12.7     15.8     27.1     25.0         15.3   13.9   13.3
   FA Pendency Achieved         16.7      13.2     15.6     28.8     27.7         13.4   14.8   14.6

                                FY 2002 Pendency Targets and Actual Performance
                        40

                        20

                            0
                                  PTO     TC 1600 TC 1700 TC 2100 TC 2600 TC 2800 TC 3600 TC 3700
   Total Pendency Target          26.5      26.4    26.8     36.3     34.4        23.1   22.4    21.8
   Total Pendency Achieved        24.0      25.5    25.5     36.3     34.9        23.2   22.1    21.8

Source: PTO Management and PTO 2002 Performance and Accountability Report (PTO pendency achieved).


Patent Production Model requirements. PTO has used the patent production model since
1982 to establish yearly production levels for its eight technology centers and estimates for
future production, pendency targets, and staffing resources (see figure 7). PTO’s model
provides a structured methodology for establishing annual production goals. The model
determines each technology center’s yearly goal based on last year’s actual examiner
achievement and on next year’s anticipated budget and examiner staffing levels. Specifically,
the goal is based on the workload for the anticipated number of examiners for each technology
center. The difference between the production goals of the technology centers and PTO goals
is the “reach” or additional production expected for each technology center. The model
combines the production goals for each technology center to determine the agency’s overall
production goal. For the last four fiscal years, PTO achieved an average of 100.7 percent of
the model’s goal—indicating the model has adequately projected agency production (see
appendix 1).




                                                      6

      U.S. Department of Commerce                                                          Final Report IPE-15722
      Office of Inspector General                                                                  September 2004

  Figure 7: Patent Production Model
    Purpose: To establish the upcoming year’s production for each technology center, and estimate long-term production,
    pendency, and staffing levels for the entire patent corps. 

    Used for: Budget estimates, impact on spending, management meetings, and production output. 

    Revised: Yearly based on budget requirements, and anticipated examiner level production.


   Yearly Budget Estimates                   TC estimated 1                        2           PTO 
 3           PTO 4
                                              production            Plus Reach**            estimated 
        pendency
   Human Resource Estimates:
                    units                                     production           GOAL
   • New hires                                                                             unit GOAL
   • Beginning of year examiners
   • Examiners lost to attrition
   • Other time: training, detail,                 Compare estimated budget, human resource, production, and 5
     etc. 	                                      pendency goals to end-of-year achievement and make adjustments 

                                                                        for following year

   Prior Year’s Production Unit 

   Achievement



 * Production Units: as a measure of examiner output, one production unit equals two counts—first office action and disposal.
 **Reach: Supervisors are given an art unit production goal based on examiner goals plus additional production beyond that
   goal.

Source: PTO’s Patent Production Model and management discussions


      Examiner requirements. PTO has hundreds of expectancy goals—the average number of hours
      within which examiners must process each application6—based on different technologies. PTO
      has not revised current examiner goals since 1976. Most examiners have only a few goals
      because they process applications involving the same technology. Individual examiner
      productivity is measured in terms of “counts:” examiners receive one count for each first office
      action7 and one for each disposal,8 which together equals one production unit (see figure 8). In a
      two-week period, examiners are expected to process a certain number of counts based on their
      expectancy goal. For example, GS-12 examiners processing applications from class 435,
      chemistry, molecular biology and microbiology, have goals ranging between 21.5 to 25.9 hours
      to process two counts. Based on all art unit technologies, the fiscal year 2003 GS-12 equivalent
      hours for two counts was 20.5.




      6
        Expectancy goals vary among examiners and are based on the individual examiner’s grade level and the 

      complexity of the technology under review. 

      7
        The examiner issues an allowance or non-final rejection (initial rejection allowing applicant to submit 

      amendments) after reviewing the application for the first time. 

      8
        The examiner issues an allowance or receives an abandonment or writes an examiner’s answer to complete action 

      on the application.


                                                               7
U.S. Department of Commerce                                                         Final Report IPE-15722 

Office of Inspector General                                                                 September 2004



Figure 8: Example of Examiner Production System
    1    Expectancy Goal          2        Counts               3 Examiner Two-Week Production Goal
      Expectancy goal =           20 hours = 2 counts**
   20 hours* per application      40 hours = 4 counts                   60 hours*** = 6 counts
      to process 2 counts         60 hours = 6 counts

  * Based on      ** Counts                                               *** Varies based on hours spent
    application   1 = First Office Action on the Merits (FAOM)            examining (i.e., 60 hours examining
    technology    1 = Disposal: allowance, abandonment, or examiner’s     and 20 hours of other time including
                            answer                                        training; only actual examining hours
                  2 counts equal one production unit                      count toward production goal.)
Source: Office of Inspector General

An individual art unit’s annual production is calculated by adding the production units of its
examiners. A technology center’s production, in turn, is the total production numbers reported
by its constituent art units.

Improving Individual and Agency Performance

PTO seeks to improve individual performance and productivity via performance appraisal and
awards systems that provide criteria and financial incentives for meeting specified goals.
Examiners who perform at a fully successful level for the six elements contained in the
performance plans (see figure 18 on page 29) and meet certain other criteria, can receive a gain-
sharing award (for examiner production averaged over the fiscal year), a special achievement
award (for examiner production averaged over four consecutive quarters), and/or a pendency
reduction award (for examiner workflow management over two consecutive quarters).

PTO has developed a blueprint for overhauling its patent processes to boost productivity,
substantially reduce backlogged applications, and help ensure granted patents are of the highest
quality. Its 21st Century Strategic Plan, issued in June 2002 and revised in February 2003,
proposes a variety of initiatives—such as automated processing (e-government), sharing search
results with foreign patent offices, and patent search outsourcing.

As part of its strategic plan, PTO developed an action paper entitled “Transforming Work: The
E-Government Work Place.” It addresses the use of paralegals for procedural examination of
trademark applications, currently being completed by attorneys. PTO believes that this option
could save approximately $6 million annually by incorporating paralegal examiners at a 3
paralegals to 1 attorney ratio. PTO officials would like to create cross-functional teams,
consisting of attorneys and paralegals, with attorneys handling substantive issues and paralegals
handling simple or purely procedural issues. Changes in the trademark-examining workforce
could be implemented over time; as attorneys leave, the vacated positions could be filled to
achieve the proposed attorney-to-paralegal ratio.


                                                       8
U.S. Department of Commerce                                             Final Report IPE-15722
Office of Inspector General                                                     September 2004

PTO recently launched a pilot program to test the use of paralegals to perform tasks currently
handled by attorneys. Specifically, a small group of paralegals will be trained on one aspect of
the examination process—the statement of use (SOU). The paralegals will review SOUs and
identify issues that must be addressed by Trademark Operations before the mark can be approved
for registration. PTO will collect statistics on how frequently the paralegals correctly identify
issues and determine average time required for the paralegals to review an SOU and create a list
of addressable issues. In subsequent phases, PTO plans to evaluate paralegals participation in
other aspects of the trademark examination process.

PTO believes that allowing attorneys to focus on legal issues related to application review should
improve the examination process because of both the increased use of attorney’s legal skills and
their reduced handling of non-substantive trademark examination issues. Similarly, allowing
paralegals to focus on procedural examination should reduce compensation costs, improve
quality, and offer paralegals better opportunities for advancement to a higher grade. When
achieved, these savings could be passed on to applicants in terms of lower fees.




                                                9

U.S. Department of Commerce                                                         Final Report IPE-15722 

Office of Inspector General                                                                 September 2004



                         OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General conducted this program evaluation in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency,
and under authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended. We sought to determine whether
PTO’s current means for enhancing production—patent examiner goals, awards, and
performance appraisal plans—reflect current efficiencies in work processes and improved
technology. Our methodology included the following:

     • 	 Statistical analysis. We evaluated the overall statistics for seven of PTO’s eight
         technology centers9 and conducted in-depth analysis of art unit production and of art
         units’ percent of expectancy goal achieved. We also reviewed the patent examiner
         performance appraisal plans and award systems. In addition, we conducted a limited
         scope review of the trademark examination process and the potential to improve
         productivity, including the trademark examiner performance appraisal plans to determine
         how well they are linked with supervisor and PTO goals.
     • 	 Interviews. We spoke with PTO management, technology center directors, supervisory
         patent examiners, patent examiners from all seven technology centers, and trademark
         examiners, as well as with patent attorneys10 and patent bar members11 to obtain their
         suggestions for improving examiner production and reducing pendency.
     • 	 Literature review. We evaluated PTO reports on past and future productivity initiatives
         and implementation schedules for future initiatives, as well as reports from private and
         public sector entities, including GAO, to identify best practices and process
         improvements that can be implemented at PTO.

While we evaluated examiner production over the last 5 years for seven of the eight technology
centers and some art units, it was not our purpose—nor did we attempt—to determine the
adequacy of the Patent Application Location and Monitoring system, nor did we review the
validity of the PALM system data. PTO could not provide some data for fiscal year 2002
because the PALM system cannot replicate data after a fiscal year has occurred. We conducted
our fieldwork at PTO headquarters in Arlington, Virginia, from October 2003 to May 2004. At
the conclusion of our review, we discussed our recommendations with the Commissioner for
Patents, the Chief Financial Officer, and other senior PTO officials.




9
  We did not include technology center 2900 because patent corps reports do not include data for it. 

10
   Patent attorneys work with patent related law. 

11
   Patent bar members are registered with PTO and have been approved to represent inventors before the PTO. 


                                                       10
U.S. Department of Commerce                                                         Final Report IPE-15722 

Office of Inspector General                                                                 September 2004



                              OBSERVATIONS AND CONCLUSIONS

I. 	    Patent Examiner Goals Have Not Changed Since 1976 to Better Reflect Efficiencies
        in Work Processes and Improved Technology

PTO has invested heavily in new automation since the 1980s to improve examiner work
processes and efficiency. Not surprisingly then, we found that most art units process
applications in less time than their allotted goals that were established in 1976. In addition to
examiners exceeding their goals, PTO statistics showed that patent quality is improving and
patent complexity is not materially increasing.12 PTO should reevaluate its goals and consider
revising them to reflect efficiencies in work processes from automation and other enhancements.

A. 	    Most art units process applications in less time than allotted goals

Our review of technology center production reports for fiscal years 1999-2003 revealed that
approximately 95 percent of the art units processed applications in less time than their allotted
goals. However, examiner production remained stagnant in fiscal years 2002 and 2003. To
evaluate examiner production, we conducted two detailed reviews. First, at the technology
center level we evaluated expected versus actual hours per production unit to determine whether
the centers were meeting their production goals. PTO examiners have one primary production
goal: expectancy goal or time allotted per application in hours. If examiners process applications
faster than their expectancy goal, then they would exceed their expectancy goal and be eligible
for an award. If they spend more hours per application than their expectancy goal, then they will
not qualify for a production award (see section III). Figure 9 shows that the 7 technology centers
that we reviewed surpassed the 100 percent level for all 5 years, or spent less time than their
expectancy goals to process applications.




12
  Each expectancy goal contains a complexity factor for the technology that an examiner has to review. The more
complex the technology, the higher the complexity factor. From 1999 to 2003, the complexity factor increased 4.25
percent. From 1990 through 2003, the complexity factor increased 11 percent or an average of .85 per year based in
part on some new technologies.

                                                       11
U.S. Department of Commerce                                                                 Final Report IPE-15722 

Office of Inspector General                                                                         September 2004


Figure 9. Technology Center Percent Achieved of Expected Goal, FYs 1999-2003
                       125%
                       120%                                         1999       2000       2001        2002    2003
     Percent of Goal




                       115%
                       110%
                       105%
                       100%
                       95%
                              1600   1700           2100        2600/2700         2800             3600      3700
                                                    Technology Centers

Source: PTO PALM Reports and OIG analysis

Second, we also evaluated production statistics for all art units in the seven technology centers to
determine how many art units had met their goals. In fiscal year 2003, we found that 256 out of
269 (95 percent) art units processed applications in less time than their allotted goals (see figure
10). Supervisory patent examiners indicated that some of the goals are probably too easy to
reach. Indeed, productivity research suggests that increased automation and improvements in
systems and methods have—for most sectors—correspondingly increased output per employee
per year.13

Figure 10. Art Unit Attainment of Expectancy Goals
                                                     1999          2000          2001              2002       2003
 Art Unit Production (Percent
                                                   111.6%         112.4%       113.3%          109.9%        110.1%
 Expectancy)
 Art Units Processing
 Applications in Less Time Than                      91%           92%           95%         N/Avail. 1       95%
 Expectancy Goals (%)
 Art Units Processing
                                                   195 out        220 out      239 out                       256 out
 Applications in Less Time Than                                                               N/Avail.
                                                   of 215         of 239       of 251                        of 269
 Expectancy Goals (#)
 1
     PTO did not have historical art unit statistics for 2002 and could not replicate this data.
Source: PTO PALM Reports and OIG analysis

PTO union personnel provided a different opinion from that of the supervisory patent examiners.
Union personnel stated that some examiners work voluntary overtime to complete applications
because they are not allotted enough time per application. They emphasized that examiners need
time for actions such as preparing final rejections, which they do not receive credit for. Some

13
     Monthly Labor Review, May 1997, The Federal Productivity Measurement Program: final result, p. 27.

                                                             12
U.S. Department of Commerce                                                     Final Report IPE-15722
Office of Inspector General                                                             September 2004

examiners stated that they work no voluntary overtime, and some said that they work overtime
depending on the time of the year. However, while some examiners claim that they work
voluntary overtime, PTO does not document voluntary overtime because there are no sign-
in/sign-out requirements. Therefore, based on PTO statistics, most examiners use less time per
application than they are allotted.

B.      Examiner review of patent applications has improved

Quality patents have been defined as those that can be enforced in court, consistently survive
validity challenges, and be dependably employed as a technology transfer tool.14 Since
December 2002, PTO has made quality a key initiative, and has begun to implement some
quality improvement programs, including integrating reviews at all stages of examination,
expanding reviews of senior examiner work, expanding the second review of applications to all
technology centers, and most importantly, reviewing the work of all examiners, which had only
been done randomly after a patent has been allowed (see appendix 2). In 2002, PTO’s user
community emphasized the importance of PTO achieving the goals outlined in its strategic plan,
including the quality initiatives.15

We found that six of PTO’s key quality statistics have generally improved over the past 2 years,
particularly as measured by decreases in five areas—examiner error rates, applications reopened,
applications referred to the Board of Patent Appeals and Interferences, examiner grant rate,16 and
examiner allowance rate, and an increase in the sixth—percentage of cases affirmed or affirmed-
in-part by the Board of Patent Appeals and Interferences. Figure 11 documents the changes in
all six statistics over the 6-year period.




14
   Statement by John R. Thomas, Professor of Law, Georgetown University, before the House Judiciary

Subcommittee On Courts, the Internet, and Intellectual Property, July 24, 2003. 

15
   American Intellectual Property Law Association (AIPLA), Biotechnology Industry Organization (BIO), 

Intellectual Property Owners Association (IPO), and International Trademark Association (INTA), Memorandum

from AIPLA, BIO, IPO, and INTA to the Honorable Mitchell E. Daniels, Jr., October 24, 2002.

16
   While defined in the trilateral patent office statistical report, USPTO does not track the grant rate. 


                                                     13
U.S. Department of Commerce                                                              Final Report IPE-15722 

Office of Inspector General                                                                      September 2004



Figure 11: PTO Quality Review Statistics for FYs 1998-2003

                                                  Quality Review Statistics
                                  6000
                                  4000
                                  2000
                                     0
                                                1998       1999          2000     2001         2002     2003
   Number of Applications Reopened              125           225         302      271         177      N/A
   Board of Appeal Review                       3779       4040          2982     3854         3125     2721

                Error Rate, Grant Rate, Allowance Rate, and Board of Appeal Affirmations
                        80%

                        60%

                        40%

                        20%

                         0%
                                         1998          1999           2000      2001         2002       2003
   Error Rate                            4.7%          5.5%           6.6%      5.4%         4.2%       4.4%
   Grant Rate                        69.0%             65.4%          70.6%     71.3%        62.3%      60.8%
   Allowance Rate                    69.5%             70.7%          70.9%     68.4%        66.6%      65.4%
   Board of Appeal Affirmations      45.3%             31.5%          39.5%     39.1%        39.2%      47.5%

Source: PTO Management and OIG analysis

PTO’s primary quality indicator is the examiner error rate, which identifies reasons for errors
and suggests corrective actions to eliminate them. PTO quality review specialists calculate this
rate by analyzing a sample of allowed patents for patentability issues, such as the adequacy of
the examiner’s search and the originality or conventionality of the applicant’s claims, and
determining how many (percent) contain at least one claim that would be held invalid in a court
of law.

The remaining five statistics are as follows: (1) PTO reopens applications based upon
applications sampled for post review by PTO personnel; (2) the Board of Patent Appeals and
Interferences reviews adverse patentability decisions at the request of patent applicants, owners,
and/or third-parties; (3) the Board of Patent Appeals and Interferences affirms or affirms-in-part




                                                               14 

U.S. Department of Commerce                                                          Final Report IPE-15722
Office of Inspector General                                                                  September 2004

cases that it reviews; (4) the examiner grant rate;17 and (5) the examiner allowance rate.18 The
later two statistics measure the rigor/quality of the patent examination process—the assumption
being that the lower the rates, the more rigorous the examination process. The grant rate
documents the percentage of applications granted out of yearly disposals (i.e., granted, rejected,
and abandoned), while the allowance rate documents the percentage of applications allowed out
of yearly application disposals.

Other quality improvement indicators

We noted five other factors that indicate that the stability and oversight of the examiner
workforce has improved, which should increase the quality of patent applications processed.

     1. 	 The examiner attrition rate dropped from a high of 13.77 percent in 2000 to 7.00 percent
          in 2003, which means that PTO is retaining examiners and expanding the experience of
          the corps. Specifically, the number of GS 12 through 15 examiners has risen from 53.8
          percent in fiscal year 1999 to 70 percent in fiscal year 2003, suggesting a more
          experienced patent corps. (See appendix 3.)

     2. 	 The ratio of SPEs to examiners—13 to 1— remained virtually unchanged from fiscal
          year 1998 through 2002, which suggests that supervisors’ availability for monitoring
          examiner performance and quality has not been diminished despite increasing staff
          numbers and workload.

     3. 	 FY 2003 performance appraisals for SPEs have put greater emphasis on evaluating the
          quality of examiners’ work—raising this appraisal element from 25 percent to 35 percent
          of a SPE’s overall performance, and requiring that they now assess not only the quality of
          an examiner’s performance, but also the quality of an examiner’s products and services.
          (See appendix 4.)

     4. 	 During FY 2002, PTO instituted quality reviews of applications in process, to
          complement its reviews of patents granted (see appendix 2). The new procedure provides
          a two-tier assessment of applications in the examination pipeline—one to determine
          quality of examiner work and the other to identify examiner training needs—which
          should increase application quality.

     5. 	 In October 2003, PTO announced that it would begin a 5-point program to improve the
          quality and consistency of examiner restriction practices in Technology Center 1600,
          Biotechnology and Organic chemistry. Examiners will be trained to use best practices



17
   The examiner grant rate is the number of applications granted during the reporting period divided by the number
of disposals, including abandonments, during the reporting period. PTO does not track the grant rate.
18
   The examiner allowance rate is the number of total applications allowed by PTO divided by the total number
disposed.

                                                        15
U.S. Department of Commerce                                                     Final Report IPE-15722
Office of Inspector General                                                             September 2004

        related to restricting the number of inventions and/or claims in biotechnology,
        pharmaceutical, and organic chemistry applications.19

Union and industry concerns about patent quality

Despite PTO’s quality improvement indicators, the agency’s examiner union and a key PTO user
group contend that patent quality has decreased, noting their belief that (1) the increased
complexity of applications has not been offset with a corresponding expansion in examiner hours
per application; (2) the number of lawsuits and threatened lawsuits against U.S. manufacturers
accused of having invalid patents is rising; and (3) PTO’s patent searches do not always locate
the most relevant prior art. However, the agency’s examiner union and two user groups could
not provide any evidence to support their conclusions.

The examiner union stated that patent quality will not improve until examiners are given more
time to process applications. The user group stated its belief that PTO’s patent searches are not
as thorough as those performed by the European Patent Office, which allows its examiners more
time per search and has a much higher pendency rate than PTO. The group agrees, however, that
PTO’s strategic plan should improve patent quality. We also agree that patent quality can always
be improved and that PTO’s current and planned initiatives should help promote such
improvement.

C.      Application complexity has gradually increased

While some patent applications have become more complex, depending on the type of
technology involved, the increases have been gradual and without dramatic impact on the
amount of time examiners need to process most applications. PTO management cited seven
statistics as reasonable indicators of application complexity: (1) original claims filed per
application, (2) final claims per issued patent, (3) average number of restrictions per examiner,20
(4) hours for first office action on the merits, (5) examiner actions per application, (6) application
complexity—hours per production unit, and (7) information disclosure statements—relevant
prior art filed by the applicants. Figure 12 shows steady increases or the same levels for seven
measurements of complexity.




19
   Press Release, “USPTO Announces Action Plan Targeted to Improve Quality and Respond to Customer Needs for 

Biotech Patent Applications,” October 6, 2003. 

20
   Examiners restrict applicant claims in applications to one invention. 


                                                     16
U.S. Department of Commerce                                                     Final Report IPE-15722
Office of Inspector General                                                             September 2004

Figure 12: Measures of Application Complexity

      25

      20

      15

      10

       5

       0
                                          Ave. # of                                          Application
            Claims in filed Claims in                            Hours per    Actions per
                                       restrictions per                                     Complexity (in
             application issued patent                            FAOM        application
                                          examiner                                          examining hrs)

     1998         18.4                 15.3          8.2           18.3           2.3          N/A
     1999         19.3                 15.8          9.1           18.6           2.3            21.5
     2000         20.5                 16.6          11.0          18.7           2.3            21.7
     2001         22.2                 17.0          11.8          18.4           2.4            22.0
     2002         23.5                 17.4          12.5          18.5           2.4            22.1
                           400,000


                           200,000


                                   -
                                              FY98      FY99         FY00         FY01           FY02
    Number of Information Disclosure      185,234      212,644      233,493      249,313        260,082
    Statements Filed
    Number of Applications Filed          240,090      261,041      293,244      326,081        333,688

Source: PTO yearly statistics.

Our discussions with examiners, SPEs, and technology center directors elicited differing
opinions regarding the increase in application complexity and its impact on processing time, with
some contending the impact has been significant, and others that it has been minimal. We
believe the PTO data presented in figure 12 supports the latter opinion, as follows:

    • 	 Original claims filed per application have risen by only about one claim per year for the
        last 5 years. Applicants may submit claims for only one unique invention per application,
        but according to PTO personnel, they often attempt to include multiple inventions in one
        application. Outside patent personnel believe that this statistic is a fair measure of

                                                            17
U.S. Department of Commerce                                                             Final Report IPE-15722
Office of Inspector General                                                                     September 2004

         application complexity, with fewer claims increasing the quality of patent examination
         and excessive claims decreasing the quality of examination.21

     • 	 Final claims per issued patent increased by just two over the 5-year period—a very small
         increase. PTO personnel believe this statistic is also a fair measure of complexity.22

     • 	 Examiner restrictions per year rose by an average of only one per year over the last five
         years. Examiners restrict the number of claims in an application usually to limit an
         application to one invention. If an applicant provides new and/or additional claims to the
         examiner’s original restriction, the examiner could restrict the same application more
         than once. An examiner’s 12.5 restrictions could come from a handful of applications.

     • 	 The number of hours for FAOMs—a subset of total examiner hours per application—has
         remained virtually unchanged through the years— averaging 18.5 total hours per
         application in fiscal year 2002 compared with the 1998 average of 18.3 hours.

     • 	 Examiner actions to dispose of an application have also remained relatively constant,
         indicating that examiners are not producing more actions and/or providing more effort on
         the same number of actions.

     • 	 The anticipated types of applications filed for fiscal years 1999 to 2002 and the estimated
         average hours to process these applications were 21.5, 21.7, 22.0, and 22.1. While not
         the actual number of total hours used by examiners to process applications, this indicates
         that the application technology and expected hours per application have only risen
         slightly.

     • 	 The number of information disclosure statements23 (IDSs) filed—while increasing over
         the 5-year period—is consistent with the increase in new applications submitted (39
         percent and 40 percent, respectively). One SPE stated that the rise in applications and
         IDSs goes hand in hand and does not indicate an increase in application complexity. One
         SPE, however, added that the length of some IDSs has greatly increased over the last 5
         years, which would extend processing time. Another SPE stated that most IDSs are of
         reasonable length, and thus do not add to an application’s complexity. Because PTO
         does not document the number of pages in information disclosure statements or otherwise
         assess the complexity of the IDSs, we could not support either conclusion.




21
   Scott Wollinsky, “An Inside Look At The Patent Examination Process,” The Metropolitan Corporate Counsel, 

September 2002. 

22
   In fiscal year 2003, the final number of claims per issued patent was 18.1. 

23
   Applicants submit IDSs in addition to their applications to disclose prior art and any other information material to

patentability.


                                                          18
U.S. Department of Commerce                                            Final Report IPE-15722
Office of Inspector General                                                    September 2004

Summary

We found that most technology centers and art units are consistently exceeding their production
goals, while quality is improving and application complexity is only gradually increasing.
Therefore, we recommend that PTO reevaluate its current patent examiner goals and assess the
merits of revising them to reflect efficiencies in work processes resulting from automation and
other enhancements.




PTO agreed that current patent examiner goals should be reevaluated to assess the merit of
revising them to reflect changes in work processes. While it did not express complete
concurrence with the analysis and rationale set forth in our report to support this
recommendation, PTO did agree that changes have occurred, and more are planned in connection
with the implementation of the 21st Century Strategic Plan. Thus, PTO reported that it has
already begun reassessing the current goal system. It also noted that any changes to examiners’
goals will need to be linked effectively to changes in award programs and performance appraisal
plans.




                                               19 

  U.S. Department of Commerce                                                        Final Report IPE-15722
  Office of Inspector General                                                                September 2004

  II. 	       Patent Examiner Performance Appraisal Plans Are Not Linked to Supervisor and
              PTO Goals

  PTO and supervisory patent examiners have PTO production goals to achieve. However,
  examiner performance appraisal plans (PAPs) do not link individual performance to agency
  targets for reducing time to complete first actions and overall pendency. As a result, examiners
  stated that they set their personal annual production goals according to the awards they want to
  receive rather than to help achieve PTO’s goals.

  A. 	        Patent examiners are not rated on achieving PTO’s goals

  While the examiner PAP provides examiners with constant production goals based on their grade
  levels and expectancy goal(s), it has not been materially revised since 1987 to reflect changes in
  examiner efficiency and application complexity. As a result, the plans do not adjust examiner
  requirements to meet PTO’s changing production requirements and examiners are not rated on
  achievement of PTO’s goals. PTO management cited lengthy union negotiations for not trying
  to link examiner and PTO goals through an updated PAP.

  To meet their own production goal, examiners can process newer applications first, which may
  fulfill their production goal but have little impact on the backlog and meeting agency pendency
  goals. 24 However, SPE and agency production and pendency goals change yearly to reflect
  changes in application filings, the backlog, and examiner staffing levels. Figure 13 illustrates
  how the examiner plan does not measure examiner contributions to SPE and PTO pendency and
  production goals.

Figure 13: Examiner and SPE Performance Appraisal Plans and PTO Performance Goals
        Type of Goal                 Examiner                  SPE (Art Unit)                          PTO
 First Action Pendency Goal           None*                New Case Date Goal**               18.4 months in FY 03
    Total Pendency Goal                None                New Case Date Goal**               27.7 months in FY 03
                                    Expectancy       Examiner production + additional        Patent Production Model
      Production Goal
                                       Goal            production to “reach” PTO goal            Goal-see page 7.
*Workflow management requires examiners to process one application with the oldest actual and effective filing date.
**A group of applications filed between certain months of the year that must be examined to meet agency goals.
Source: Examiner and SPE Performance Appraisal Plans; PTO management

  SPE’s are responsible for motivating their examiners to meet these higher production goals. As a
  result, the SPE performance appraisal plans have two components that attempt to drive examiner
  production: “reach” and “new case date goals.” Specifically:

         •	      SPEs have higher goals for their examiners’ production than is reflected in the
                 examiners’ PAPs, the difference being the “reach” that examiners should achieve.


  24
    The workflow management element requires examiners every month to process only one application with the
  oldest actual and effective filing date.

                                                         20 

U.S. Department of Commerce                                                      Final Report IPE-15722
Office of Inspector General                                                              September 2004

            SPEs are expected to motivate examiners’ to exceed their production units each year
            beyond the level contained in the examiners’ PAPs.

     •	     SPEs are assigned a “new case date goal”—a group of applications filed between
            certain months of the year that must be examined to meet agency pendency goals.
            While the SPE directs examiners to process these applications, examiner performance
            plans do not require examiners to process these applications, and thus examiners are
            not held accountable for failing to turn them around within SPE and agency goals.

PTO management believes that the new case date goals and reach programs have been effective
for two reasons. First, examiners exceeded PTO production goals for fiscal years 2001-2003
(see appendix 1). Second, PTO’s fiscal year 2003 first action pendency of 18.3 months was
slightly less than its 18.4-month goal. However, while PTO met its production goals in 2003,
first action and overall pendency have risen. More importantly, PTO estimates that first action
and overall pendency will continue to rise in the next few years, even if PTO fully implements its
21st Century Strategic Plan.

The key point is that in fiscal year 2002, five of the seven technology centers did not meet their
first action pendency goal (the average was 16.7 months) and two centers did not meet their
overall pendency goal (see figure 6 on page 6). Yet the number of examiners receiving
outstanding ratings increased from 55 percent to 61 percent from fiscal year 2001 to 2002. In
other words, even though pendency is rising, examiners were being rewarded for their
performance because the elements in their appraisal plans that measure production have not
materially changed since 1987; PTO’s performance goals, on the other hand, change yearly.

In 1995, a private contractor hired by PTO recommended that the agency revise its performance
appraisal and awards systems, and require management to make a clear link between employees’
performance and PTO goals.25 PTO did not implement the contractor’s recommendations, citing
that such changes would have to be negotiated with the union. A PTO task force also
recommended in 1999 that PTO align employee performance requirements among the different
employee groups with PTO’s performance requirements and business goals.26 Supervisory
patent examiners assign “new case date goals” to individual employees, but they do this to a
mixed effect, given the absence of a corresponding link in performance appraisal plans. For
example, PTO production data clearly shows that examiners did achieve more than their
production goals, although PTO did not achieve its goals to reduce first action and overall
pendency.

The contractor’s finding reflects a long-standing deficiency common to many federal agencies,
according to the General Accounting Office. GAO has emphasized for years that agencies must

25
   Booz-Allen & Hamilton Inc., PTO Goal Study-Task 1a, An Assessment of the Current Performance
Measurements and Rewards System for Patent’s Technical Support Staff, July 1995; and PTO Goals Study-Task 2,
Design Options for the PTO Performance Measurement and Rewards System, December 1995.
26
   “Self-Assessment of the U.S. Patent and Trademark Office Using The Baldrige Criteria for Performance
Excellence, August 1999.

                                                     21
U.S. Department of Commerce                                                     Final Report IPE-15722
Office of Inspector General                                                             September 2004

disseminate their overall goals to employees at all levels, including those at the front line, and
make clear their part in achieving these goals27 and the relevance of their daily work activities to
doing so. To help agencies improve this linkage, GAO issued guidance in March 200228 on how
to effectively tie unit/individual performance to organizational goals via performance agreements
and appraisal plans.29

B.      Trademark examiners are rated on achieving PTO’s goals

Until recently, the PAPs of trademark examiners did not link to the agency’s pendency reduction
goals—a missing link that trademark management acknowledged. Trademark examiners were
required to meet their production goals in accordance with their performance plans. As a result,
PTO had no means to hold trademark examiners accountable for contributing to agency goals.
The trademark examiner PAPs did not link examiner production rates to overall pendency
reduction. Yet trademark managers must meet specific PTO targets for reducing first action and
overall pendency.

The Office of Trademarks recently aligned its trademark organizational goals with trademark
examiner goals. The office prepared an action paper entitled, “Examining Attorney Performance
Appraisal Plan,” and in April 2004, it proposed new performance appraisal plans for GS-13 and
GS-14 Trademark Examining Attorneys. The changes align attorneys’ performance appraisal
plans with the mission and goals of the agency. However, PTO's trademark examiner union has
appealed the changes in the trademark examiners' performance appraisal plans to the Federal
Service Impasses Panel. PTO management stated that the union disagrees that its examiners
should do more work for the same amount of pay. The Panel resolves impasses between federal
agencies and unions representing federal employees arising from negotiations over conditions of
employment under the Federal Service Labor-Management Relations Statute and the Federal
Employees Flexible and Compressed Work Schedules Act. If bargaining between the parties,
followed by mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

Historically, trademark examiners would meet or exceed their productivity requirements to
obtain monetary awards. While examiners exceeded their production goals and received
bonuses, the Office of Trademarks continued to fall short of its goals for reducing pendency (see
figure 14). For example, the office has failed to meet its targeted goals for first action pendency
over the past five years (except in fiscal year 2001 when examiner staff was at an all time high
and the number of trademark applications received was dramatically lower than in previous
years).


27
   U.S. General Accounting Office, September 2000. Human Capital, A Self-Assessment Checklist for Agency 

Leaders, GAO/OGC-00-14G.

28
   U.S. General Accounting Office, October 2000. Managing for Results: Performance Agreements, GAO-01-115.

Washington, DC: U.S. Government Printing Office. 

29
   U.S. General Accounting Office, March 2002. A Model of Strategic Human Capital Management, GAO-02

373SP. Washington, D.C.: U.S. Government Printing Office. 


                                                    22
U.S. Department of Commerce                                                                                    Final Report IPE-15722 

Office of Inspector General                                                                                            September 2004


           Figure 14: Trademark Actual Versus Targeted First Action Pendency
                                             First Action Pendency FY99 - FY03

                                                                              2.7      6.6
                                                                5.7
                                    8.0          4.6                                                           5.4
                   Months Pending
                                                       3.9            4.5                       4.3
                                                                                                      3.0            2.5
                                    6.0

                                    4.0

                                    2.0

                                    0.0
                                          1999           2000               2001         2002           2003


                                                                Actual        Target




Summary

We recommend that PTO examine the benefits of revising its patent examiner performance
appraisal plans to (1) better reflect agency production, first action, and overall pendency goals,
nd (2) better measure examiner success at processing applications within specified time periods.




PTO agreed that the patent examiner performance appraisal plan should be examined to
determine potential revisions to the timeliness critical element, “Workflow Management,” and
better link the criteria for evaluation to PTO pendency goals. The agency stated that it has begun
to review the “Workflow Management” element and will be considering changes along the lines
suggested in our report. It also reiterated the point in our report that any changes in the PAP, as
well as to the production and award system, may be subject to negotiations with its bargaining
unit representatives before implementation.




                                                                        23 

U.S. Department of Commerce                                                 Final Report IPE-15722 

Office of Inspector General                                                         September 2004



III. 	    Patent Examiner Award System Is Not Well Structured

PTO offers examiners three incentive awards, each of which is tied to their achievement of
specific production levels: (1) an annual gain-sharing award—for examiner production at 110
percent averaged over the fiscal year, (2) a special achievement award—for examiner production
at 110 percent averaged over four consecutive quarters, and (3) a pendency reduction award—for
examiner workflow management averaged over two consecutive quarters. The requirements for
receiving these performance awards are well defined and well understood by supervisors and
examiners (see figure 18 on page 29). Figure 15 shows awards distribution for the last 5 years.

Figure 15: Patent Examiner Awards (Fiscal Years 1999-2003)
                                     100%
                 Percent Examiners




                                     50%


                                      0%
                                            FY 1999   FY 2000     FY 2001   FY 2002      FY 2003
       Gain-sharing                          70%       73%         67%       67%          60%
       Special Achievement                   74%       77%         70%       69%          63%
       Pendency Reduction                    39%       44%         38%       35%          28%

Source: PTO management


We found (1) the gain-sharing award offers examiners no incentive to produce more than 110
percent of their assigned production goal—the minimum production level needed to qualify for a
gain-sharing or special achievement award; (2) the special achievement award requires that
examiners only achieve the same 110 percent average as the gain-sharing award, but over four
consecutive quarters, rather than over the fiscal year; and (3) relatively few examiners have
qualified for the pendency reduction award.

A. 	      No “gain-sharing” award is offered between 110-120 percent of the production goal to
          encourage production at that level

For fiscal years 1999 through 2002, approximately 69 percent of examiners received the
productivity gain-sharing award by processing applications in less time than they are allotted
(see figure 15 above). In fiscal year 2003, the examiner participation rate dropped to 60 percent.
While an examiner can qualify for the award at three different production levels—110, 120, and
130 percent of their production goal—the majority of examiners only achieved the 110 percent
level (see figure 10 on page 12). Notably, their average production decreased from 113 percent
and remained at approximately 110 percent the last two fiscal years, indicating fewer examiners
improved production to receive more than the minimum gain-sharing award.

                                                             24
U.S. Department of Commerce                                             Final Report IPE-15722
Office of Inspector General                                                     September 2004


We found the number of examiners producing at the 100-109 percent level has risen from 29.6
percent to 40.9 percent from fiscal years 1999 to 2003, while the number of examiners producing
at the 110-119 percent level went slightly down from 55.1 percent to 50.9 percent (see figure 16
on the next page). There could be many factors affecting the number of examiners receiving or
not receiving awards. However, we believe there are four main reasons.

First, examiners and their supervisors contend that once they achieve 110 percent, the structure
of PTO’s awards system offers little incentive to aim higher: examiners qualify for both gain-
sharing and special achievement awards once they achieve 110 percent of their production goal,
and there is no reward for additional production until they achieve 120 percent. Second,
examiners stated that the extra effort to achieve the 120 and 130 percent goals would require
voluntary overtime hours. The potential reward, examiners contend, is not worth the sacrifice.
Third, PTO examiners received a 10 percent pay raise in 2001, through an agreement with the
examiner union.30 With a substantial salary increase, the additional production required for an
award could become less appealing (perhaps reducing the incentive for examiners to exceed 110
percent of production). Fourth, PTO has initiated additional quality control initiatives that may
have reduced the number of examiners at 110 percent of production goal and increased the
number of examiners at 109 percent of production goal level (see figure 16).

While most examiners consistently achieve the minimum 110 percent level, fewer examiners are
obtaining the higher award levels. An addition of one or two award levels between 110 percent
and 120 percent might increase examiner production. Some examiners stated that an award for
115 percent production might motivate them to work toward a higher goal. A TC director and
SPE stated that examiners want to balance work and personal responsibilities, and rewarding at
115 percent production might motivate some examiners and art units alike to produce more. The
percentage of examiners achieving 120 percent and 130 percent has dropped off so significantly
since fiscal year 2000 that the long-term value of these two levels should be evaluated along with
consideration of new award levels.




30
     Agreement on Initiatives for a New Millennium, June 2001.

                                                         25
U.S. Department of Commerce                                                  Final Report IPE-15722 

Office of Inspector General                                                          September 2004


       Figure 16: PTO Production Statistics for Various Production Levels
                                                    1999     2000     2001      2002       2003
        Art Units at 100%                           1.0%     2.1%     1.0%     N/Avail.    1.8%
        Art Units at 101%                           3.0%     1.0%     2.3%     N/Avail.    1.5%
        Art Units at 102%                           1.0%     1.2%     1.6%     N/Avail.    1.5%
        Art Units at 103%                           1.0%     1.6%     1.9%     N/Avail.    2.2%
        Art Units at 104%                           1.0%     3.7%     1.6%     N/Avail.    4.0%
        Art Units at 105%                           6.0%     4.2%     4.3%     N/Avail.    4.8%
        Art Units at 106%                           3.0%     2.9%     2.7%     N/Avail     8.0%
        Art Units at 107%                           4.0%     6.2%     3.2%     N/Avail.    4.8%
        Art Units at 108%                           5.0%     4.2%     5.5%     N/Avail.    3.0%
        Art Units at 109%                           4.6%     3.7%     6.3%     N/Avail.    9.3%
        Subtotal                                   29.6%    30.8%    30.4%     N/Avail.   40.9%
        Art Units at 110%                           8.3%     4.6%     6.7%     N/Avail.    5.9%
        Art Units at 111%                           4.1%     5.4%     3.1%     N/Avail.    5.9%
        Art Units at 112%                           6.0%     6.6%     5.9%     N/Avail.    4.8%
        Art Units at 113%                           3.7%     2.9%     5.5%     N/Avail.    7.4%
        Art Units at 114%                           4.2%     5.0%     6.7%     N/Avail.    4.8%
        Art Units at 115%                           7.4%     2.5%     4.7%     N/Avail.    3.7%
        Art units at 116-119%                      22.4%    25.1%    24.3%     N/Avail.   18.4%
        Subtotal                                   55.1%    52.1%    56.9%     N/Avail.   50.9%
        Art Units at 120% or greater                15.3%    17.1%    12.7%    N/Avail.    8.2%
        TOTAL                                      100.0%   100.0%   100.0%    N/Avail.   100.0%
        Art Units at 130% or greater                 0.9%     2.5%     0.8%    N/Avail.    0.0%

       Source: PTO PALM reports and OIG analysis


B. 	      Special achievement award does not require higher performance than the gain-sharing
          award

Because PTO only requires examiners to average 110 percent production for the special
achievement award, there is little meaningful difference between the special achievement award
and the gain-sharing award (see figure 17). PTO’s special achievement award does not require
examiners to (1) average at least 110 percent per quarter or (2) attain higher than the minimum
110 percent level of the gain-sharing award. PTO is essentially paying examiners for the same
behavior/production levels for these two awards. While overall average examiner production has
remained at approximately 110 percent for the last two fiscal years, examiners have not
consistently maintained that level throughout the year. Examiner production from one quarter to
another can vary greatly, mostly in the fourth quarter to obtain required production to meet
award criteria.




                                                   26 

U.S. Department of Commerce                                                 Final Report IPE-15722 

Office of Inspector General                                                         September 2004


       Figure 17: Comparison of Gain-Sharing and Special Achievement Awards
                              Current                               Current
           Award             Production                               Time
                            Requirement                               Period
       Gain-sharing       110%/120%/130%              Average of four quarters for fiscal year
          Special
                                  110%                Average of four consecutive quarters
        Achievement
       Source: Guidelines for Performance Appraisal Plans, 1987

The special achievement award does not distinguish itself from the gain-sharing award by
changing the behavior and production levels of examiners. As an option perhaps the award
should be eliminated and the awards’ funds combined with the gain-sharing award. As a result,
the gain-sharing award would provide a larger incentive for examiners to achieve any new
interim awards’ levels that would be established.

C.     Criteria for pendency reduction award are not tied to pendency reduction

The pendency reduction award lacks the criteria to reduce patent pendency and the financial
award to attract examiner participation. From fiscal year 1999 through 2003, many more
examiners received both the gain-sharing and special achievement awards compared to the
pendency reduction award. To attain the pendency reduction award, examiners must achieve a
fully successful rating in the production goal achievement and quality elements over a period of
two consecutive quarters in addition to (a) completing and submitting all examiners' answers and
responses to amendments replying to non-final office actions within one month of receipt, (b)
mailing all office communications within 15 days from submission for credit, and (3) completing
and submitting the new case having the oldest actual filing date for credit each pay period (see
figure 18 on page 29). We found that the current pendency award is ineffective for two reasons.

A key element in examiners’ performance appraisals—workflow management—is used to
determine eligibility for the pendency reduction award. Workflow management is assessed in
terms of the examiners’ completion of 17 tasks (see page 35, appendix 5). However, this
element is an ineffective measure for the award because 11 of the 17 tasks are administrative and
have no significant impact on the duration of the pendency process. For example, tasks include
examiners promptly signing and/or proofreading office communications for mailing and/or
correction, conducting proper interviews with the public, and providing consultation services to
the public and peers. These tasks only have marginal impact on either time to first action or
overall pendency.

By the same token, two of the 17 tasks that do impact first action and overall pendency—act on
new applications with the oldest effective filing date and act on new applications with the oldest
actual filing date—only require examiners to process one of each of these applications by the end



                                                   27 

U.S. Department of Commerce                                                               Final Report IPE-15722
Office of Inspector General                                                                       September 2004

of every other pay period.31 To address this flaw in the workflow management element and
ensure that examiners work on the oldest applications, PTO established informal “new case date
goals.” Specifically, each supervisor provides his or her examiners with applications from a
certain period that must be processed. However, these “new case date goals” are not
documented in the workflow management element or the examiner’s performance appraisal plan,
and therefore do not affect the examiners’ eligibility for the award. We believe the new case
date goals should be part of the workflow management element if this element is to remain a
major measure for the pendency reduction award.

In addition to the problems with the criteria, one SPE emphasized that the award—which
amounts to only 0.5 percent of their salary—is not large enough to interest them in working
harder to reduce pendency. A number of technology center directors and SPEs concurred that
the effort required for so small a return is a further deterrent. For example, to achieve the award,
examiners have to review amendments in 30 days rather than 60, and must document their
progress in meeting this and other accelerated times biweekly throughout each quarter.32 One
SPE emphasized that the more stringent requirements are achievable, just not worth the reward.

Summary

PTO should evaluate the current patent examiner award system to determine if there is a more
effective and efficient way to stimulate higher examiner production.




PTO agreed that the current patent examiner award system should be reevaluated to ensure that it
provides the most effective way to stimulate examiner production. The agency said that
consideration will be given to the relationship between current programs, and to changing award
level increments/payouts to stimulate greater interest in higher achievement. PTO also noted that
it will examine examiner historical trends and examiners’ motivation to achieve higher
production levels, and it will adapt best practices to stimulate and reward examiners who
contribute to PTO’s high quality efficiency goals.




31
     The examiner performance appraisal plan criteria is different from that in the award criteria.
32
     U.S Patent and Trademark Office, Guidelines for PAP, August 1987.

                                                            28
 Figure 18. PTO Productivity Awards Criteria

     Performance Plan Element, Objective, and Activity                              Criteria for Evaluation Element Score*                 Ratings                          Awards
                                                                                     Achieve a minimum error rate
        1. Patent Examining Functions- Initiate appropriate                                                                                               1. Productivity Gain-sharing Award
                                                                                    and percentage of deficient office
           action for granting or denying a patent                                                                               10%                      • 110%-130% of production goal
                                                                                      actions during the period, in
        • Open application; Plan search; Perform search; (14                                                                                              • 1400 examining hours in FY
                                                                                      accordance with supervisory
           total functions)                                                                                                                               • Fully successful in performance rated
                                                                                               approval.
                                                                                                                                                             quality elements
                                                                                                                                                          • Fully successful in workflow management
        2. Action Taking**- Prepare clear and complete                              Achieve a minimum “clear error”                                          (FY)
           office actions by granting or denying a patent                            rate in office actions taken/not            10%                      • Receive 1%-6% of base salary at end of
        • Complete actions without committing clear error                               taken in accordance with                                             FY
                                                                                    supervisors’ review of examiner                     Outstanding       2. Special Achievement Award
                                                                                                  actions.                                (score)         • 110% of production goal
        3.Patentability Determination**- Determine
          whether all allowed claims in an application are                                                                                                • 1400 examining hours in award period
                                                                                    Achieve a minimum “clear error”                    Commendable        • Fully successful rating in all other
          patentable
                                                                                         rate in accordance with                         (score)             performance elements (four consecutive
        • Formulate and independently sign office actions
                                                                                    determining the patentability of a           20%                         quarters)
29




                                                                                                  claim.                               Fully successful   • Receive 3% of base salary at end of four
                                                                                                                                           (score)           quarters
        4. Production Goal Achievement- Achieve assigned
           expectancy goal                                                          Achieve required production unit                                      3. Pendency Reduction Award
        • Examine assigned patent applications from first                            (hours of assigned examining                                         • No more than nine subtraction points in
           action to final disposition within assigned time                            time/assigned count goal).                                            workflow management over the last two
                                                                                                                                 40%                         quarters.
           period
                                                                                                                                                          • 700 examining hours in two consecutive
                                                                                                                                          Marginal           quarters.
                                                                                                                                          (score)         • Fully successful in production goal
        5.Workflow Management- Expedite patent
                                                                                       Meet time periods or special                                          achievement and quality elements (two
          applications in accordance with office policy and
                                                                                        handling instructions for                       Unsatisfactory       consecutive quarters), in addition to
          service the public and peers
                                                                                       applications or proceedings                         (score)           completing and submitting all examiner’s
        • Process all applications in specified time period;
                                                                                             awaiting action.                                                answers and responses to amendments
          provide consultation and assistance to the public                                                                      10%                         replying to non-final office actions within
                                                                                                                                                             one month of receipt, (b) mailing all office
                                                                                                                                                             communications within 15 days from
        6.Customer Service-                                                                                                                                  submission for credit, and (c) completing
                                                                                       Meet time periods or special                                          and submitting for credit the new case
        • Return phone calls, review emails, provide
                                                                                       instructions for maintaining                                          having the oldest actual filing date each
          appropriate voice mail notification, direct external
                                                                                             customer service.                   10%                         pay period
          customers appropriately
                                                                                                             29                                           • Receive 0.5% of base salary at end of two
      * Elements for senior examiners.
      ** “Action Taking” and “Patentability Determination” are not elements for GS-13 examiners who do not have signatory authority.                         consecutive quarters
     Source: Examiner Performance Appraisal Plans and PTO Award Agreement
U.S. Department of Commerce                                             Final Report IPE-15722 

Office of Inspector General                                                     September 2004




                                   RECOMMENDATIONS

We recommend that the Under Secretary of Commerce for Intellectual Property and
Director of the United States Patent and Trademark Office ensure that the following
actions are taken, recognizing that implementation, as appropriate, is subject to negotiation
with PTO’s unions:

   1. 	 Reevaluate current patent examiner goals and assess the merits of revising them to reflect
        efficiencies in and changes to work processes resulting from automation and other
        enhancements (see page 11).

   2. 	 Examine the benefits of revising patent examiner performance plans to (a) better reflect
        agency production, first action and overall pendency goals, and (b) better measure
        examiner success at processing applications within specified time periods (see page 20).

   3. 	 Evaluate the current patent examiner award system to determine if there is a more 

        effective and efficient way to stimulate higher examiner production (see page 24). 





                                               30 

U.S. Department of Commerce                                           Final Report IPE-15722 

Office of Inspector General                                                   September 2004




                                                   APPENDICES

Appendix 1. Examiner and SPE/PTO Production Unit Forecast Model

                               350000


                               300000

            Production Units




                               250000


                               200000


                               150000


                               100000


                                50000


                                    0

                                          2000
         2001
     2002
          2003

    Estimated Examiner
                  205367
       211901
   238286
        260150

    Production w/o OT
    Estimated Examiner                   257700
       250000
   277000
        293289

    Production w/ OT
    SPE/PTO Goal                         257700
       250000
   277000
        293289

    Actual Production
                   248593
       255935
   279700
        301666

    % Achieved
                          96.5%         102.4%    101.0%         102.9%


Source: PTO’s Patent Production Model




                                                       31 

     Appendix 2. Quality Review Organizational Chart

                                                                       Quality Review Comparison

                 Pre-21st Century Strategic Plan                                                     Post-21st Century Strategic Plan
                   Allowance Review Process                                                  In-Process Review & Allowance Review Process


                  Deputy Director of the Patent                                                   Deputy Commissioner for Patent
                     and Trademark Office                                                                  Operations


                                                                                                  Quality Assurance Specialist (QAS)
                Patentability Review Examiners


                                                                Review Quality Assurance                                                 Training Quality Assurance
          Allowance Reviews**                                                                           RQAS & TQAS                      Specialist
          • Reports to Office of Patent Quality Review          Specialist
32




                                                                • Reports to Office of                    Breakout                       • Reports to Technology
          • Reviews a sample of allowed applications to                                                 TC      RQAS      TQAS              Center Directors
              determine if claim is patentable                      Patent Quality Review
                                                                • Performs In-Process*                 1600       3         2            • 	Performs In-Process and
          • Reviewers are given between 5 and 6.1 hrs to                                               1700       4         2               Allowance reviews and other
              review each application (5 hrs/mechanical,            and Allowance reviews
                                                                                                       2100       3         4               tasks requested by
              5.7 hrs/chemical, and 6.1 hrs/electrical)         • Reviews designated                   2600       3         3
                                                                    technology center                                                       technology center director
          • In FY 02, there were 21 reviewers                                                          2800       5         6            • 	Identifies examiner training
                                                                    applications                       3600       3         1
          • Historically, approximately 5,600 cases were                                                                                    needs
                                                                • 31 RQAS for the                      3700       6         2
              reviewed each year                                                                                                         • 	20 TQAS spread throughout
                                                                    examining corps                    Leads      4         0
                                                                                                                                            the 7 Technology centers
                                                                                                       Totals    31        20
          *In-Process Review: After the first action on the
          merits is completed and prior to allowing the
          patent application, a specialist reviews a sample
          of applications to review the quality, correctness,
                                                                      In-Process* & Allowance** Reviews
          and patentability.
                                                                      • Reviewers are given 1 hour for in-process reviews and 3 hours for allowance reviews
          **Allowance Review: Prior to issuing a patent, a            • Reviews a statistically valid sample of applications after the first action on the merits is
          specialist reviews a sample of allowed                        complete and/or prior to issuance of the patent
          applications to determine if any errors were made           • Reviewers check the quality of search, correctness and clarity of rejections, rejections that
          in allowing the patent.                                       should have been made, clear errors, and patentability
                                                                      • In FY 03, approximately 9,600 cases were reviewed

     Source: PTO management
U.S. Department of Commerce                                   Final Report IPE-15722 

Office of Inspector General                                           September 2004



   Appendix 3. Number of Examiners by Grade Level for Fiscal Years 1998 – 2003



                  1400



                  1200



                  1000



                   800



                   600



                   400



                   200



                      0
                            1998   1999      2000      2001      2002      2003
    GS-5                     41     41           34     34        34        27
    GS-7                    363    439           210   198       382        235
    GS-9                    363    544           454   324       423        431
    GS-11                   219    357           489   465       410        381
    GS-12                   197    207           270   409       421        401
    GS-13                   372    351           372   482       663        777
    GS-14                   939    959           977   1058      1121      1250
    GS-15                    99     89           98     90        84        77
    Total (Patent Corps)    2593   2987      2904      3060      3538      3579

   Source: PTO Management




                                          33 

U.S. Department of Commerce                                                       Final Report IPE-15722
Office of Inspector General                                                               September 2004


Appendix 4. Patent Corps Performance Appraisal Plans

                                                                      GS 13                 GS 13-15
                     Probationary                                Partial Signatory        Full Signatory
PAP Weights                              GS 5-13 Examiner
                      Examiner                                      Authority               Authority
                                                                    Examiner                Examiner
                  Former     Current    Former      Current     Former     Current      Former Current
Patent
Examining            90         80          45         35          30            25        10        10
Function
Action Taking                                                      15            15        15        10
Patentability
                                                                                           20        20
Determination
Customer
                                10                     10                        10                  10
Service*
Production
Goal                                        45         45          45            40        45        40
Achievement
Workflow
                     10         10          10         10          10            10        10        10
Management
*The Customer Service Element was added in 2001.
                 GS 15
                                                                Technology Center Director
      Supervisory Patent Examiner
       Former              Current                            Former                       Current
                     Quality of
                     Examiner             20       Quality of Products      20
Examining            Products                                                     Program/Mission
                 25                                                                                       50
Quality              Quality of                                                   Accomplishment
                                                   Processing Times
                     Examiner             15                                35
                                                   and Productivity
                     Services
Examining
                 25 Processing                     Customer/
Productivity
                     Times and            35       Client Service           15                            20
Patent
                 20 Productivity                   Responsiveness
Pendency
Effective
                 15 Effective
Leadership           Leadership
                                                   Leadership/
                     including            30                                30                            30
Diversity                                          Management
                 15 Employee
Management           Satisfaction
Source: PTO 2001 Initiatives for a New Millenium and Patent Corps Performance Appraisal Plans




                                                     34 

     Appendix 5. Workflow Management Criteria
                                                                                                                          Points
                                                                                                            Points                     Bonus
                                                                                                                        deducted
                                                                                                          deducted                     points
          Criteria for Evaluation                                                  Recommended                           2nd and
                                              Processing Time Requirement                                   for 1st                   drafted
                                                                                  Processing Time                      subsequent
                                                                                                          failure to                    for
     * = Elements OIG determined related to                                                                             failure to
              pendency reduction.                                                                          comply                    excellence
                                                                                                                         comply
     1. Handles reexamination               Follows priority and timing         None
        procedures                          specified in the Manual of Patent                                -3            -5
                                            Examining Procedure (MPEP)
     2. Acts on reissue applications        Next available case after
         involved in litigation             expiration of two months from the                                -3            -5
                                            Official Gazette (OG) notice
     3. Acts on Patent Cooperation          Follows priority and timing
                                                                                                             -3            -5
35




         Treaty applications                specified in MPEP
     4. Acts on applications made           Next available case examiner acts
                                                                                                             -3            -5
         special by petition                on
     5. Acts on reissue applications not a Next available case after expiration
                                                                                                             -3            -5
         involved in litigation             of two months from OG notice
     6. Responds to post-final rejection Within 10 calendar days after          Mailed within 30 days
         amendments or communications receipt by the examiner                   of their receipt in the      -2            -2          +0.5
                                                                                office
     7. Responds to non-final rejection Within 2 months after receipt by
         amendments or communications the examiner                              Within 1 month of their      -1            -1          +0.2
         *                                                                      receipt by the examiner
     8. Responds to appeal briefs *         Within 2 months after receipt by                                 -1            -1          +0.2
                                             the examiner
     9. Acts on new applications with       By the end of every other pay       Completed for credit by      -1            -1          +0.5
         the oldest effective filing date * period                               the end of every other
     10. Acts on new application with       By the end of every other pay        pay period                  -1            -1          +0.5
         the oldest actual filing date *    period
      11. Processes and/or handles               Promptly
                                                                                                                -1   -1
          responses under 37 CFR 1.312
      12. Processes and/or handles printer       Within the time period established
                                                                                                                -1   -1
          waiting cases                          for the particular case
      13. Processes and/or handles the           Promptly
          signing and/or proofreading of
                                                                                                                -1   -1
          office communications for
          mailing and/or correction
      14. Complies with the proper               Promptly and in compliance with      Throughout the entire
          conduct of interviews and/or           office policy                        quarter or equivalent
                                                                                                                -4   -6   +1
          contact with the public                                                     thereof during the
                                                                                      rating period
      15. Frequently provides                                                         Frequently throughout
          consultation services to the                                                the entire quarter or
36





                                                                                                                          +0.5
          public and peers                                                            equivalent thereof
                                                                                      during rating period
      16. All typed office                                                            Mailed within 30 days
          communications are promptly                                                 from the submission for
          processed and mailed within 30                                              credit by the examiner
                                                                                                                          +0.5
          days from the submission for                                                throughout the quarter
          credit by examiner *                                                        or equivalent thereof
                                                                                      during rating period
      17. All typed office                                                            Mailed within 15 days
          communications are promptly                                                 from the submission for
          processed and mailed within 15                                              credit by the examiner
                                                                                                                          +0.5
          days from the submission for                                                throughout the quarter
          credit by examiner *                                                        or equivalent thereof
                                                                                      during rating period
      Source: Guidelines for PAP, August 1987.
U.S. Department of Commerce                    Final Report IPE-15722
Office of Inspector General                            September 2004


Appendix 6. Agency Response to Draft Report




                                        37 

U.S. Department of Commerce          Final Report IPE-15722 

Office of Inspector General                  September 2004





                              38 

U.S. DEPARTMENT OF COMMERCE
      Office of Inspector General 

          Room 7898C, HCHB 

14th Street & Constitution Avenue, NW 

        Washington, DC 20230


          Internet Web site: 


          www.oig.doc.gov

